r

No.

IN THE
SUPREME COURT OF THE UNITED STATES
TERM 2021

PROBERT LEE CRAWFORD,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Robert Crawford, do hereby certify by signature below
that copy of the corrected petition page indicating the current
address of Petitioner was duly placed in the prison mail system
postage prepaid first class, to the Solicitor General of the
United States, Room 56-14, Department of Justice, 950 Pennsylvania
Ave. N.W., Washington D.C. 20530-0001.
Service was made with a letter explaining the Courts issue
with the filing and a copy of the corrected page.

Robert Crawford

